Report No. D-2011-091               July 22, 2011





    DoD Indian Incentive Program Payments to Related 

         Parties and Rebates to Excluded Parties

                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON , VIRG INIA 22202-4704
                                                                    July 22, 2011




MEMORANDUM FOR DIRECTOR, OFFICE OF SMALL BUSINESS
                 PROGRAMS

SUBJECT: DoD Indian Incentive Program Payments to Related Parties and Rebates to
         Excluded Patties (Project No. D20 I 0-DOOOFJ-0 180.000) .

We are providing this report for your information and use. We reviewed incentive
requests made by the Office of Small Business Programs (OSBP) to prime contractors
under the DoD Indian Incentive Program. As requested by your office, we reviewed the
list of contractors that submitted incentive requests in FY 2010.

Our audit objective was to determine whether sufficient guidance exists to ensure DoD's
Office of Small Business Programs properly approves and awards incentive payments
under the DoD Indian Incentive Program.

 OSBP did not have sufficient qualification g~idance regarding requests made by related
 and excluded parties. We identified incentive requests totaling $4.17 million from prime
 contractors who were inappropriately subcontracting to a related party and prime
 contractors on the Excluded Parties List System (EPLS). We notified OSBP of these
instances in two memorandums issued in May 2010. The OSBP Acting Director
 responded by implementing new guidance and denying the requests in June 2010. OSBP
put to better use $3.02 million in FY 2010 requests from prime contractors appearing
related to their subcontractors, and OSBP put to better use $1.15 million in FY 2010
requests made by a prime contractor who was on EPLS.

BACKGROUND

Section 1544, title 25, United States Code (25 U.S.C. § 1544 [1988]), "Additional
compensation to contractors of Federal agency," established an incentive payment for
contractors that subcontract to Indian-owned enterprises based on 5 percent of the amount
payable to the subcontractor. DoD began the Indian Incentive Program (liP) in FY 1997,
for which Congress appropriated $8 million each fiscal year, and for FY 2008 and
thereafter, appropriated $15 million each fiscal year. The Under Secretary ofDefense for
Acquisition, Technology, and Logistics (USD[AT&L]), OSBP, administers the liP.

Prime contractors initiate the liP application process by submitting to their contracting
officers:
    • Copies of 51-percent ownership certifications from eligible subcontractors; copies
        of certifications of tribal, Native Alaskan, or Native Hawaiian enrollments from
        eligible subcontractors; or subcontractors' completed self-cettification forms;


                                            1
   •	 Copies of all eligible subcontractors’ invoice receipts;
   •	 Invoice summary sheet, listing invoices by number and explaining the 5-percent
      rebate amount; and
   •	 Rebate request letter stating subcontractors’ eligibility as Indian-, Native Alaskan-
      or Native Hawaiian-owned enterprises and citing Defense Federal Acquisition
      Regulation Clause 252.226-7001.

The DoD contracting officer then collects, reviews, and verifies the request and
documentation received from prime contractors. After verification, the contracting
officer submits a funding request letter and the supporting documentation to OSBP.
Finally, OSBP personnel process the request and determine whether to approve payment,
if funding is available.

REQUESTS BY RELATED PARTIES

OSBP did not have a formal definition of “related or affiliated” at the start of our review.
Related parties, as discussed here, are prime contractors and Indian-owned subcontractors
whose apparent relationship would diminish the need to compensate risk, such as a
relationship of common corporate organizational structure, common management
personnel, family relationship, or a teaming arrangement. We reviewed 208 FY 2010 IIP
requests, valued at $15 million, and identified 11 requests submitted by two prime
contractors, valued at $3.02 million, where the prime and the subcontractor met the
definition of related parties.

Although not specifically prohibited in formal guidance, OSBP had denied requests for
IIP payments to related parties on a case-by-case basis. OSBP posted this policy on its
Web site’s “Frequently Asked Questions” section and then more formally implemented it
in an August 2009 information memorandum. The OSBP Acting Director stated that
although 25 U.S.C. § 1544 (1988) does not formally restrict such requests, in her opinion,
a “prime contractor should not need an incentive to subcontract to an affiliated
company.” She added that the decision to withhold payments to related parties complies
with 25 U.S.C. § 1544 (1988) and making IIP payments to a related party would be an
inappropriate use of program funds and not in the best interest of the taxpayer.

In a memorandum to OSBP, we suggested suspending payments (see Attachment 1). The
OSBP Acting Director agreed and denied the funding, which resulted in $3.02 million of
funds put to better use for FY 2010 (see Attachment 2 for OSBP’s response).

RELATED PARTIES CORRECTIVE ACTION TAKEN

To address the related-party issues, the OSBP Acting Director:

   •	 initially denied payment to the prime contractors that appeared related or
      affiliated with Indian-owned enterprises; however, she agreed to reconsider
      incentive payments if the prime contractors certify to DoD that no affiliations
      exist with their subcontractors;
                                             2

    •	 contacted the responsible DoD contracting officer to obtain certification of 

       non-affiliation;


    •	 updated the OSBP August 2009 memorandum, clarifying the policy regarding
       payments to related parties and posted the memorandum online; and

    •	 updated OSBP request procedures to require certification of non-affiliation from
       the prime contractor as part of the request package.

The OSBP Acting Director also further defined “affiliated” in the non-affiliation
certification to mean a “subcontractor that is not owned or affiliated as a subsidiary, joint
venture, partnership or mutual/co-ownership by the prime contractor.”

REQUESTS BY EXCLUDED PARTIES

Of the 208 FY 2010 IIP requests, valued at $15 million that we reviewed, 50 requests,
valued at $1.15 million, were submitted by one prime contractor, who was added to
EPLS on November 16, 2009. EPLS provides information about parties that are
excluded from receiving Federal contracts, certain subcontracts, and certain Federal
financial and nonfinancial assistance and benefits.

On November 9, 2009, a criminal indictment was issued, accusing the prime contractor of
defrauding the Government by submitting inflated bills and false claims while under
contract with the Defense Logistics Agency Defense Supply Center Philadelphia. The
indictment listed the prime vendor contracts as those which the prime contractor
allegedly submitted inflated bills and false claims.

Because the prime contractor listed on the EPLS had requested IIP funding, it is possible
that the contractor could have inflated the subcontractor invoices to determine the
5-percent incentive payment. Therefore, it is plausible that the requested amounts were
affected by inflated bills and false claims.* In a memorandum to OSBP, we informed the
Acting Director that the prime contractor was listed in the EPLS and was under
indictment.

In our memorandum, we suggested suspending the FY 2010 IIP payments to the prime
contractor (see Attachment 3). The OSBP Acting Director agreed, resulting in
$1.15 million of IIP funds put to better use (see Attachment 4 for OSBP’s response).




*
 Because of the ongoing criminal and civil investigations by the Department of Justice, Defense Logistics
Agency (DLA), and Defense Criminal Investigative Service, we could not review the submitted invoices to
confirm.

                                                    3

EXCLUDED PARTIES CORRECTIVE ACTION TAKEN 


During the audit, the OSBP Acting Director:

   •	 denied payment to the prime contractor until the case is resolved;

   •	 contacted the responsible DoD contracting officers regarding these decisions;

   •	 directed that contracting officers review the EPLS before submitting requests for
      incentive payments to OSBP; and

   •	 established internal procedures to ensure OSBP personnel also review the EPLS
      before approving incentive payment requests and processing payments.

AUDIT STANDARDS

We conducted this performance audit from March 2010 through May 2011 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

AUDIT METHODOLOGY

We visited and interviewed officials from the USD(AT&L) Office of Small Business
Programs. These officials provided program information, guidance, a data extract, and
incentive request packages. The data depicted incentive requests (both paid and
approved for payment) dating back to FY 1997. The database also included requests for
FY 2010 and a few for FY 2011 that were not approved or paid during our audit. This
database was an in-house tracking system created and maintained by OSBP personnel.

We compared OSBP data with open-source information to determine whether a
relationship existed between a prime contractor submitting the request for incentive
payment and the qualifying subcontractor and whether either contractor was excluded
from Federal contracting. Examples of the open-source information we used include
contractor Web sites, registration with states’ Secretary of State Business Filing Web
sites, and the Excluded Parties List System.

We coordinated with the Department of Justice, DoD Defense Criminal Investigative
Service, and Defense Logistics Agency to gather information on the prime contractors’
debarment or exclusion from Federal contracting. These agencies are performing the
ongoing civil and criminal investigations into the prime contractor we identified as
having pending incentive requests while also listed in EPLS and, as such, we limited our
review into these requests.


                                            4

USE OF COMPUTER-PROCESSED DATA

We relied on computer-processed data on DoD IIP application requests and payments.
The data was obtained directly from OSBP personnel, who created and maintained the
database to organize hardcopy requests. During our review, we reviewed select hardcopy
requests, verified contractor names with public Web sites, and on the EPLS. We
determined the computer-processed data to be reliable.

PRIOR AUDIT COVERAGE

During the last 5 years, the Government Accountability Office (GAO) and Small
Business Administration Inspector General (SBA IG), have issued four reports discussing
contracting with Indian Organizations and Indian-owned economic enterprises.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted SBA IG reports can be accessed over the Internet at http://www.sba.gov/ig/.

GAO
GAO Report No. 06-399, “Contract Management: Increased Use of Alaska Native
Corporations’ Special 8(a) Provisions Calls for Tailored Oversight,” April 27, 2006

SBA IG
SBA IG Report No. 10-11, “Irregularities Involving Alaska Native Technologies, LLC,”
April 29, 2010

SBA IG Report No. 9-15, “Participation in the 8(A) Program by Firms Owned by Alaska
Native Corporations,” July 10, 2009

SBA IG Report No. 8-14, “Non-Native Managers Secured Millions of Dollars From 8(A)
Firms Owned by Alaska Native Corporations Through Unapproved Agreements That
Jeopardized the Firms’ Program Eligibility,” August 7, 2008

We appreciate the courtesies extended to the staff. Please direct questions to me at (614)
751-2913. If you desire, we will provide a formal briefing on the results.




                                          Amy J. Frontz, CPA
                                          Principal Deputy Inspector General
                                            for Auditing


Attachments:
As stated


                                            5

Memorandum: Related Parties





                               Attachment 1 

                                 Page 1 of 2 

Attachment 1 

  Page 2 of 2 

OSBP Response to Memorandum Regarding Related
Parties




                                      Attachment 2 

                                        Page 1 of 1 

Memorandum: Excluded Parties





                                Attachment 3 

                                  Page 1 of 2 

Attachment 3 

  Page 2 of 2 

OSBP Response to Memorandum Regarding
Excluded Parties




                                        Attachment 4 

                                          Page 1 of 1 

